               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Postal Service Performance During
        the 2010 Fall Mailing Season

                       Audit Report




                                          September 7, 2011

Report Number NO-AR-11-007
                                                                    September 7, 2011

                                            Postal Service Performance During the
                                                          2010 Fall Mailing Season

                                                       Report Number NO-AR-11-007



IMPACT ON:                                  to the Office of Investigations over the
Mailers and customers during the 2010       past several years.
Fall Mailing Season.
                                            WHAT THE OIG RECOMMENDED:
WHY THE OIG DID THE AUDIT:                  We recommended the vice president,
Mailers expressed concerns over the         Network Operations, coordinate with
substantial amount of delayed Standard      area vice presidents to promptly assess
Mail® and Periodicals during the 2010       mail volumes and swiftly adjust
Fall Mailing Season.                        workhours, assignments, sort plans,
                                            transportation, machine run times, and
WHAT THE OIG FOUND:                         any other operational requirements to
During the 2010 Fall Mailing                ensure that customer service
Season, the U.S. Postal Service had         commitments are satisfied.
more than 3.4 billion delayed
mailpieces, a 37-percent increase           Further, we recommended the
compared to the same period last year.      vice president, Network Operations
Approximately 95 percent of this            coordinate with the vice president
delayed mail was Standard Mail. This        Consumer and Industry Affairs to ensure
adversely impacted service and resulted     Postal Service Business Service
in approximately $10.9 million in           Network (BSN) representatives promptly
revenue at risk. Factors contributing to    resolve Postal Service mailer inquiries
this condition included failure to adjust   pertaining to delayed mail.
mail flow, sort plans, and staffing to
meet operational changes, particularly      WHAT MANAGEMENT SAID:
when implementing consolidations and        Management agreed with the
realignments. We identified a very small    recommendations and indicated they
amount of stand-by time (or idle time)      will develop checklists, action plans, and
during this period; thus, it appears the    scheduling models to assist plant
vast majority of employees were             management in planning for fall mail
engaged in processing mail.                 volume variations. In addition,
Contributing factors also included          operations will work with the BSN and
underestimating mail volumes,               Customer Outreach to identify plant
underutilizing machines, not consistently   specific hotspots for delays and identify
color-coding mail, and not accurately       areas for improvement.
identifying and reporting delayed mail.
We have referred three instances of         Link to review the entire report
intentional misreporting of delayed mail
September 7, 2011

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT NETWORK OPERATIONS

                           SUSAN LACHANCE
                           VICE PRESIDENT CONSUMER AND INDUSTRY AFFAIRS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Postal Service Performance During the 2010
                           Fall Mailing Season (Report Number NO-AR-11-007)

This report presents the results of our audit assessing the U.S. Postal Service’s mail
processing performance during the fall of 2010 (Project Number 11XG019NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, Network
Processing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Frank Neri
    David C. Fields
    Jordan M. Small
    Jo Ann Feindt
    Steven J. Forte
    Drew T. Aliperto
    Linda J. Welch
    Sylvester Black
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
                                                     TABLE OF CONTENTS

Introduction ............................................................................................................................. 1

Conclusion .............................................................................................................................. 1

Delayed Mail Trends and Site Comparisons ......................................................................... 2

Contributing Factors to Delayed Mail .................................................................................... 3

Richmond and St. Louis P&DCs Observations ..................................................................... 4

Mailer Scan Data .................................................................................................................... 5

Impact ..................................................................................................................................... 6

Management’s Comments ..................................................................................................... 7

Evaluation of Management’s Comments .............................................................................. 8

Appendix A: Additional Information ....................................................................................... 9

      Background ...................................................................................................................... 9

      Objective, Scope, and Methodology ............................................................................... 9

      Prior Audit Coverage ..................................................................................................... 10

Appendix B: Other Impacts .................................................................................................. 13

Appendix C: Prior Audit Reports -……………………………………………………………...14

      Contributing Factors to Excessive Delayed Mail

Appendix D: Management’s Comments .............................................................................. 15
Postal Service Performance During                                                                  NO-AR-11-007
 the 2010 Fall Mailing Season


Introduction

This report presents the results of our audit assessing the U.S. Postal Service’s mail
processing performance during the 2010 Fall Mailing Season (Project Number
11XG019NO000). This self-initiated audit addresses operational risk. The audit
objective was to assess the timeliness of the Postal Service’s processing of mail during
the 2010 Fall Mailing Season. See Appendix A for additional information about this
audit.

Some Postal Service mailers expressed concerns with the Postal Service’s
performance during the 2010 Fall Mailing Season regarding timely processing of mail.
Specifically, their concerns were that mail delays were significantly higher and more
widespread than in prior years. Generally, the Postal Service’s performance is impacted
in the fall due to higher than normal Standard Mail® volumes in response to increases in
advertising campaigns for back to school and winter holidays. Mailers also indicated
that they provided Confirm/Intelligent Mail Barcode (IMB) 1 scan data to Postal Service
Business Service Network (BSN) representatives 2 indicating where mail delays were
occurring but never received feedback. The mailers felt their concerns were not being
adequately addressed by the Postal Service.

Conclusion

During the 2010 Fall Mailing Season, Postal Service delayed mailpieces were
approximately 3.4 billion, or 6 percent of total mail volume. This represented a delayed
mailpiece increase of 904 million, or 37 percent from the same period last year.
Approximately 95 percent of this delayed mail was Standard Mail.

This adversely impacted service and resulted in approximately $10.9 million in revenue
at risk (see Appendix B). Because the audit started after the 2010 Fall Mailing Season,
we could not directly observe the reasons for the delays at that time. However, based
on our body of work regarding delayed mail, as well as inquiries and site visit
observations, we summarized possible contributing factors as follows.

   Failure to adjust mail flow, sort plans, and staffing timely to meet operational
    changes during the peak mailing season, particularly when implementing
    consolidations and network realignments.

   Underestimating 2010 Fall Mailing Season mail volumes.

   Underutilizing mail processing machines.



1
  Confirm and IMB services provide information via a unique barcode on when the Postal Service receives mail and
when it is sorted on the automated equipment.
2
  Postal Service Business Service Network Representatives respond to customer service complaints from Postal
Service customers.
                                                         1
Postal Service Performance During                                                                       NO-AR-11-007
 the 2010 Fall Mailing Season


   Not consistently color-coding mail and maintaining the proper color-code throughout
    processing, and not accurately identifying and reporting delayed Standard Mail. We
    have referred three instances of intentional misreporting of delayed mail to the Office
    of Investigations over the past several years.

   Not utilizing a Standard Mail service measurement system to identify causes for mail
    delays and not providing guidance to plant management to mitigate those delays.

Also, Postal Service BSN representatives did not always properly address Postal
Service mailer delayed mail concerns. On the other hand, we identified a very small
amount of stand-by time 3 during this period; thus, it appears this was not a cause of the
delays as the vast majority of employees were engaged in processing mail.

Delayed Mail Trends and Site Comparisons

Delayed mail volumes increased significantly during the 2010 Fall Mailing Season or
Quarter 1 fiscal year (FY) 2011. We found the Postal Service had more 3.4 billion
delayed mailpieces, which represented 6 percent of total mail volume. During this
period, delayed mailpieces increased by 904 million, or 37 percent from the same
period last year. Approximately 95 percent of this delayed mail was Standard Mail.

We also concluded that Group 1 plants 4 delayed mail totaled almost 1.2 billion or
5 percent of the total Group 1 plants mail volume. The Group 1 plants experienced an
increase in delayed processing of 398 million mailpieces, or 49 percent from the same
period last year. The Pittsburgh Processing and Distribution Center (P&DC) had the
highest percentage of delayed mail as a p ercent of First Handled Pieces (FHP)
(see Table 1).




3
  Work hours of mail processing employees who are kept on the clock, but are idle.
4
  Group 1 plants represent the largest 43 mail processing facilities in the Postal Service. During Quarter 1, FY 2011,
the Group 1 largest mail processing facilities accounted for approximately 20 percent of overall mail volume and
approximately 35 percent of overall delayed mail volumes.




                                                           2
Postal Service Performance During                                                  NO-AR-11-007
 the 2010 Fall Mailing Season


Table 1: Group 1 Plants Delayed Processing as a Percent of FHP for the 2010 Fall
                                Mailing Season

    Ranking                   Plant                              Percent of FHP
       1         Pittsburgh P&DC
       2         St. Louis P&DC
       3         Carol Stream P&DC
       4         Cleveland P&DC
       5         Columbus P&DC
       6         Richmond P&DC
       7         Philadelphia P&DC
       8         North Metro P&DC
       9         Milwaukee P&DC
      10         Michigan Metroplex P&DC

The President’s Commission on the U.S. Postal Service report dated July 31, 2003,
states that the mission of the Postal Service is:

        . . . to provide high-quality, essential postal services to all persons and
        communities by the most cost-effective and efficient means possible at
        affordable and, where appropriate, uniform rates.

Title 39 U.S.C., Part 1, Chapter 4, §403, states:

        The Postal Service shall plan, develop, promote, and provide
        adequate and efficient postal services at fair and r easonable rates
        and fees.

The Postal Accountability and Enhancement Act of 2007, amended Title 39 U.S.C. to
require the Postal Service “. . . establish a set of service standards. . . .” Additionally, the
Postal Service is required to establish performance goals for those standards.

Contributing Factors to Delayed Mail

Because our audit started after the 2010 Fall Mailing Season, we could not directly
observe the reasons for the delays at that time. However, based on Postal Service
management inquiries, our prior work regarding delayed mail (see Appendix C), and
facility observations, we summarized possible contributing factors as follows.

   Failure to adjust mail flow, sort plans, and staffing timely to meet operational
    changes during the peak mailing season, particularly when implementing
    consolidations and realignments.




                                               3
Postal Service Performance During                                                    NO-AR-11-007
 the 2010 Fall Mailing Season


   Underestimating mail volumes for the 2010 Fall Mailing Season. Also, FHP mail
    volume increased from 46.5 billion pieces in Quarter 1, 2010 to 49 billion pieces in
    Quarter 1, 2011, a 5.4 percent increase.

   Failure to fully use machine capacities by reducing idle time during peak volume
    periods. Five facilities with the highest amount of delayed mail as a percent of FHP
    for the 2010 Fall Mailing Season could better use machine capacity on the
    Automated Flat Sorter Machine (AFSM) 100, Automated Package Processing
    System (APPS), and Small Parcel Bundle Sorter (SPBS). On average, these
    machines all operated at daily runtimes lower than the goal of 20 hours (see Table
    2). By increasing machine runtime, the facilities could process more mail and
    minimize delayed mail volumes.

      Table 2: Average Daily Machine Run Times (in hours) FY 2011 Quarter 1

                     Pittsburgh        St. Louis         Carol Stream   Cleveland   Columbus
         AFSM           10.02             9.16               7.95          7.73        7.00
         APPS           15.64            12.07               NA*            NA        13.17
         SPBS           16.31             4.20               NA*          13.07       12.02
       *NA indicates that plant does not use this type of equipment.


    Failure to properly color-code the mail, thereby preventing processing mail in a first-
    in, first-out (FIFO) method and not accurately identifying and r eporting delayed
    Standard Mail. Our previous audits and observations showed most of the reporting
    errors were due to misinterpretation of the color-code policy by the mail clerks. We
    referred three instances of intentional misreporting of delayed mail to the Office of
    Investigations over the past several years.

   Not using a Standard Mail service measurement system to identify causes for mail
    delays and not providing guidance to plant management to mitigate those delays.

Richmond and St. Louis P&DCs Observations

The Richmond and the St. Louis P&DCs experienced delayed mail during FY 2010. The
causes for the excessive delayed mail at the Richmond P&DC were inadequate staffing
and supervision, low mail throughput on machines, failure to consistently color-code
arriving mail, and not accurately identifying and reporting delayed mail. Also, mail
damage from poorly packaged mail resulted in delayed processing of flat mailpieces.
Our observations at the St. Louis P&DC in April 2011 revealed that excess delayed mail
occurred from not adjusting mail flow, sort plans, and staffing timely to meet operational
requirements and from not accurately identifying and r eporting delayed mail.




                                                     4
Postal Service Performance During                                                                      NO-AR-11-007
 the 2010 Fall Mailing Season




Picture 1: Excessive Delayed
 Mail in Staging Area at the
      Richmond P&DC

     (June 7, 2011, 5:42 a.m.)




Picture 2: Week old Delayed
Mail observed at the St. Louis
           P&DC.

    (March 30, 2011, 8:50 a.m.)




Mailer Scan Data

Postal Service BSN representatives did not always provide timely feedback to business
mailers regarding mail delays. Business mailers indicated they provided the Postal
Service BSN representatives with detailed scan data showing the location of mail
delays. However, the mailers indicated they did not always receive a follow-up response
from the Postal Service. 5 In our survey of 107 Postal Service BSN representatives,


5
 The Postal Service maintains a CustomerFirst! System for issues related to late and no delivery of mail for all
classes of mail to track service requests including business mailer complaints.


                                                           5
Postal Service Performance During                                                                    NO-AR-11-007
 the 2010 Fall Mailing Season



approximately 84 percent indicated they forward mailer scan data 6 to operations and
provided a response to the mailer after receiving operations feedback. However, the
survey showed in some instances, they did not receive feedback from operations. In
other cases, the BSN representatives provided mailers with a non-descript response,
such as “your concerns have been elevated to the appropriate person.”

On the other hand, the nationwide stand-by time totaled more than 67,000 hours or
.12 percent of total mail processing workhours during the 2010 Fall Mailing Season.
Thus, it appears this was not a cause of the delays as the vast majority of employees
were engaged in processing mail.

Impact

Mail delays may cause mailers to seek alternative delivery methods resulting in the
potential loss of revenue for the Postal Service. We estimate that delayed mail for the
2010 Fall Mailing Season placed approximately $10.9 million in Postal Service revenue
at risk. 7 Excessive delayed mail also negatively impacts customer service as
demonstrated by the following scores. The service scores for the 10 Group 1 plants that
experienced the highest volume of delayed processing during the 2010 Fall Mailing
Season generally lagged behind national service scores (see Table 3).

Table 3: FY 2011 Quarter 1 External First-Class Service Scores for Group 1 Plants

                                           Overnight                 2-Day                  3-Day
National Average
Pittsburgh P&DC
St. Louis P&DC
Carol Stream P&DC
Cleveland P&DC
Columbus P&DC
Richmond P&DC
Philadelphia P&DC
North Metro P&DC
Milwaukee P&DC
Michigan Metroplex P&DC




6
  The Postal Service is in the process of developing a Standard Mail measurement system using scan data. This will
allow the Postal Service to be more proactive in identifying mail processing delays. We plan on examining this issue
in a separate audit.
7
  Revenue at risk was calculated by multiplying Quarter 1, FY 2011 delayed mail volume of more than 3.4 billion
pieces by the average revenue per mailpiece of 32 cents. We conservatively estimated the revenue at risk for mailers
selecting alternative delivery methods as 1 percent of this total.


                                                         6
Postal Service Performance During                                              NO-AR-11-007
 the 2010 Fall Mailing Season


Recommendations

We recommend the vice president, Network Operations; coordinate with area vice
presidents to:

1. Direct plant managers, especially at mail processing facilities where consolidations
   are occurring, to promptly assess mail volumes and swiftly adjust workhours,
   assignments, sort plans, transportation, and any other operational requirements to
   ensure that customer service commitments are satisfied.

2. Increase machine runtime during peak volume periods.

3. Direct the plant and area color-code coordinators to conduct periodic color-code
   reviews at mail processing facilities and ensure employees are properly trained on
   color-code policies and procedures.

4. Reinforce the requirement for local plant management to verify mail condition
   counting and reporting at all mail processing facilities.

5. Use a Standard Mail service measurement system to identify causes for mail delays
   and provide guidance to plant management to mitigate those delays.

We recommend the vice president, Network Operations; coordinate with the vice
president, Consumer and Industry Affairs:

6. To instruct Postal Service Business Service Network representatives to ensure
   Postal Service mailer inquiries pertaining to delayed mail are resolved promptly.

Management’s Comments

Management agreed with the recommendations and indicated they will develop
checklists, action plans, and scheduling models to assist plant management in planning
for fall mail volume variations. They will also require all supervisors and craft employees
be trained on the national color-code policy. Furthermore, a self audit form has been
provided to the color code coordinators for use in facility reviews. In addition,
management will instruct plants to review daily mail condition reporting and periodically
audit counting and reporting activities. Management also agreed to improve standard
mail service by using a national Critical Entry Time for designating Standard Mail along
with the proper application of color coding. Finally, operations will work with the BSN
and Customer Outreach to identify plant specific ‘hotspots’ for delays and identify areas
for improvement. See Appendix D for management’s comments, in their entirety.




                                             7
Postal Service Performance During                                       NO-AR-11-007
 the 2010 Fall Mailing Season



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.




                                         8
Postal Service Performance During                                               NO-AR-11-007
 the 2010 Fall Mailing Season



                             Appendix A: Additional Information

Background

Postal Service mailers expressed concerns with the Postal Service’s performance
during the 2010 Fall Mailing Season with regards to its timely processing of mail.
Specifically, their concerns were that mail delays were significantly higher and more
widespread than in prior years. Generally, the Postal Service’s performance is impacted
in the fall due to higher than normal Standard Mail volumes in response to increases in
advertising campaign for back to school and winter holidays. Mailers also indicated that
they provided Confirm/IMB scan data to Postal Service BSN representatives showing
where mail delays were occurring but never received any feedback. The mailers felt
their concerns were not being adequately addressed by the Postal Service.

Furthermore, mailers were concerned that the Postal Service’s ‘Network Rightsizing
Strategy’ via facility consolidations and closures was also negatively impacting
performance. Specifically, they were concerned:

   Union members may be delaying mail to show opposition to consolidations and
    closures.

   Plant supervisors had a daunting task of anticipating operational changes and
    making required staffing changes in an environment that was becoming less flexible.

   There was constant pressure on the Postal Service to reduce costs.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s performance during the 2010 Fall
Mailing Season. To meet our objective, we conducted interviews; performed analysis of
mail volumes, workhours, and machine output; analyzed trends; and conducted
observations at the Richmond and St. Louis P&DCs. We also reviewed prior OIG
reports with regard to the timely processing of mail over the last 5 years. In addition, we
conducted an electronic survey of Postal Service BSN representatives to determine
whether they use Confirm/IMB scan data provided by the mailers to address delayed
mail concerns.

We used computer-processed data from the Web Mail Condition Reporting System,
Enterprise Data Warehouse, and Management Operating Data System. We pulled data
from October 1, 2009, through December 31, 2010, but did not test controls over these
systems. However, we checked the reasonableness of results by confirming our
analysis and results with management and multiple data sources. We conducted this
performance audit from February through September 2011 in accordance with generally
accepted government auditing standards and included such tests of internal controls, as
we considered necessary under the circumstances. Those standards require that we



                                             9
Postal Service Performance During                                                     NO-AR-11-007
 the 2010 Fall Mailing Season


plan and perform the audit to obtain sufficient appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on July 12, 2011, and included their comments where
appropriate.

Prior Audit Coverage

                                       Final
                          Report      Report
   Report Title           Number       Date                     Report Results
Implementation of      EN-AR-11-004   3/31/2011   We recommended management promptly
Lima, OH to                                       assess the current mail volume and swiftly
Toledo, OH Area                                   adjust workhours, sort plans, transportation,
Mail                                              and any other operational requirements to
Processing                                        ensure the Toledo P&DC meets customer
Consolidation                                     and service commitments; expedite filling
                                                  vacant positions; and assess any additional
                                                  staffing requirements at all levels. We also
                                                  recommended they assess and take
                                                  appropriate corrective action related to mail
                                                  processing space and transport equipment
                                                  requirements, dispatch discipline, contract
                                                  drivers performing mail sortation, and late
                                                  truck departures. They should also establish
                                                  and deploy formal Area Mail Processing
                                                  implementation teams to the gaining
                                                  facilities for plant consolidations that result in
                                                  a facility closure to ensure consolidations
                                                  are implemented as approved and to identify
                                                  and facilitate corrective actions timely.
Color-coding of        NO-AR-10-005   3/31/2010   We recommended management provide
Mail and Mail                                     oversight to ensure continuation of color
Condition                                         code training; direct the district color-code
Reporting at the                                  coordinator to conduct periodic color-code
Albany Processing                                 reviews; provide mail condition training and
and Distribution                                  oversight to employees
Center
Fort Worth             NO-AR-09-009   9/14/2009   We recommended management follow
Processing and                                    established standards for identifying
Distribution Center                               employees with attendance problems and
Delayed Mail                                      ensure necessary disciplinary actions are
Issues                                            taken for those who abuse leave privileges;
                                                  ensure a sufficient number of employees are
                                                  available to work Automated Flat Sorting
                                                  Machines to process Standard Mail and
                                                  Periodicals timely.




                                            10
Postal Service Performance During                                                 NO-AR-11-007
 the 2010 Fall Mailing Season


Allegations            NO-MA-09-001   3/30/2009   We recommended management provide
Concerning                                        color-code training and supervisory
Operations and                                    oversight to employees; verify the delayed
Service in the                                    mail volume counts conducted by data
Philadelphia                                      collection technicians; conduct regular
Customer Service                                  meetings to foster good employee relations
District                                          and more readily identify and address
                                                  employees’ concerns; and ensure that mail
                                                  sent for recycling is properly verified. We
                                                  also recommended they improve street
                                                  supervision to ensure that carriers deliver
                                                  mail in a timely manner; ensure that mail at
                                                  carrier stations is delivered in a timely
                                                  manner; improve communications and
                                                  contingency planning when mail is directed
                                                  to other plants for processing; expedite mail
                                                  flow throughout the facility; ensure APPS
                                                  operations are properly staffed and
                                                  maintained. Further, we recommended they
                                                  modify the APPS to reduce damage to
                                                  packages; contact mailers to improve
                                                  labeling and packaging; effectively
                                                  communicate operational issues to
                                                  employees; and evaluate staffing at each
                                                  mail processing operation and delivery unit.
Timeliness of Mail     NO-AR-09-002   1/29/2009   We recommended management monitor
Processing at the                                 delayed mail daily and develop action plans,
San Juan                                          if necessary, to ensure timely processing of
Processing and                                    mail; develop and submit a request to modify
Distribution Center                               the Universal Sorter Machine to reduce
                                                  damaged mail; and assign accountability to
                                                  ensure dispatches to the islands are
                                                  accurate and expedite turn-around time of
                                                  any mail sent to the wrong island. We also
                                                  recommended they increase SPBS and
                                                  AFSM windows of operation during peak
                                                  volume periods; ensure employees are
                                                  properly trained to identify delayed mail and
                                                  ensure all mail is accurately reported on
                                                  Web Mail Condition Reporting system; and
                                                  consider and weigh the benefits of service
                                                  over risks to all the U.S. Virgin Islands to
                                                  keep and cancel local letter mail as is done
                                                  in other U.S. territories.
Mojave Post Office      EN-AR-08-06   9/17/2008   We recommended management strengthen
Facility                                          controls over highway contract routes by
Consolidation                                     providing training and provide additional
                                                  management oversight and ensure
                                                  transportation changes are accurately
                                                  recorded in the post implementation review




                                            11
Postal Service Performance During                                                 NO-AR-11-007
 the 2010 Fall Mailing Season


Delayed Mail at the    NO-AR-08-006   8/14/2008   We recommended management ensure
North Texas                                       supervisors oversee mail processing,
Processing and                                    monitor delayed mail regularly, and develop
Distribution Center                               action plans; develop and implement a mail
                                                  arrival profile; ensure Standard Mail and
                                                  Periodicals are staged and processed using
                                                  first-in, first-out procedures; rearrange
                                                  delivery bar code sorters or move sort
                                                  programs to different pieces of mail sorting
                                                  equipment to eliminate bottlenecks in the
                                                  dispatch of delivery point sequence mail;
                                                  and direct sack mail operations be returned
                                                  to the Dallas Bulk Mail Center.
Delayed Mail at the    NO-AR-08-002   3/13/2008   We recommended supervisors oversee mail
Waco Processing                                   processing and monitor delayed mail on a
and Distribution                                  regular basis and develop action plans to
Facility                                          ensure the timely processing of Standard
                                                  Mail and develop a mail arrival profile to
                                                  align staffing with mail flow.

Timeliness of Mail     NO-AR-07-012   9/28/2007   We recommended management provide
Processing at the                                 consistent, quality supervision and training;
Chicago, Illinois                                 improve planning; make employees
Cardiss Collins                                   accountable; and continue monitoring and
Processing and                                    adjusting mail processing operations to
Distribution Center                               ensure the timely processing of mail.
Mail Processing at     NO-AR-07-007   8/6/2007    We recommended management implement
the Southeastern                                  procedures for finalizing Southeastern
Pennsylvania                                      P&DC’s working mail at other facilities when
Processing and                                    volume exceeds capacity and instruct the
Distribution Center                               plant managers to process mail using a first-
                                                  in first-out method.
Timeliness of Mail     NO-AR-07-001   2/9/2007    We recommended management correct
Processing at the                                 deficiencies in the processing of Periodicals
Los Angeles,                                      and Standard Mail and continue monitoring
California,                                       and adjusting mail processing operations to
Processing and                                    ensure that all mail is processed in a timely
Distribution Center                               manner.




                                            12
Postal Service Performance During                                                                       NO-AR-11-007
 the 2010 Fall Mailing Season


                                        Appendix B: Other Impacts


                 Finding                     Impact Category                               Amount
               Delayed Mail            Revenue at Risk 8                                  $10.9 million




8
 Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).


                                                          13
  Postal Service Performance During                                          NO-AR-11-007
   the 2010 Fall Mailing Season


                              Appendix C: Prior Audit Reports -
                       Contributing Factors to Excessive Delayed Mail

                                                          Under-
                 Report                                 estimating                Color-
Report           Issue                    Operational       Mail     Equipment   Coding &
Number           Date     Facility        Management     Volume        Usage     Reporting
NO-AR-07-001     02/09/07 Los Angeles,
                                                                         √
                          CA P&DC
NO-AR-07-007     08/06/07 Southeastern
                                                  √                                  √
                          PA P&DC
NO-AR-07-012     09/28/07 Cardiss
                          Collins, IL             √
                          P&DC
NO-AR-08-002     03/13/08 Waco, TX
                                                  √                                  √
                          P&DC
NO-AR-08-006     08/14/08 North Texas,
                                                  √                                  √
                          TX P&DC
EN-AR-08-006     09/17/08 Mojave, CA
                                                  √
                          Post Office
NO-AR-09-002     01/29/09 San Juan, PR
                                                                         √           √
                          P&DC
NO-MA-09-001     03/30/09 Philadelphia,
                                                  √                                  √
                          PA P&DC
NO-AR-09-009     09/14/09 Fort W orth,
                                                  √
                          TX P&DC
NO-AR-10-005     03/31/10 Albany, NY
                                                  √                                  √
                          P&DC
EN-AR-11-004     03/31/11 Lima, OH
                                                  √         √
                          P&DF




                                             14
Postal Service Performance During                             NO-AR-11-007
 the 2010 Fall Mailing Season


                          Appendix D: Management’s Comments




                                         15
Postal Service Performance During        NO-AR-11-007
 the 2010 Fall Mailing Season




                                    16
Postal Service Performance During        NO-AR-11-007
 the 2010 Fall Mailing Season




                                    17
Postal Service Performance During        NO-AR-11-007
 the 2010 Fall Mailing Season




                                    18
Postal Service Performance During        NO-AR-11-007
 the 2010 Fall Mailing Season




                                    19
